Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




  REVIEWS OF CLINICIANS
  ASSOCIATED WITH HIGH
CUMULATIVE PAYMENTS COULD
IMPROVE MEDICARE PROGRAM
    INTEGRITY EFFORTS
  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Daniel R. Levinson
                                                   Inspector General

                                                     December 2013
                                                     A-01-11-00511
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

Of the 303 clinicians who each furnished more than $3 million of Medicare Part B services
during 2009, existing procedures identified 104 for improper payment reviews and resulted
in $34 million in total overpayments identified as of December 31, 2011. Three of these
clinicians had their medical licenses suspended and two were indicted.

WHY WE DID THIS REVIEW

Medicare paid more than $65 billion for Part B services in each calendar year (CY) from 2008
through 2011. In each of these 4 years, approximately 2 percent of clinicians were responsible
for almost 25 percent of all Part B payments with annual payments of more than $500,000 per
clinician. These clinicians were responsible for average annual payments of approximately
$1 million. Clinicians generating high Part B payments represent a greater risk to Medicare if
they bill incorrectly or commit fraud. For this review, we define “high cumulative payments” as
total annual payments of more than $3 million for Part B services furnished by an individual
clinician. From CY 2008 to CY 2011, both the number of Medicare Part B clinicians generating
high cumulative payments and the total dollar amount of those payments increased almost 78
percent.

Our objectives were to determine (1) how many individual clinicians who were responsible for
high cumulative payments were reviewed by Medicare administrative contactors (MACs) or
Zone Program Integrity Contractors (ZPICs) to identify improper payments and (2) the outcomes
of those reviews.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) administers Medicare Part B, which
covers medical services, such as office visits, diagnostic tests, and drugs and biologicals, that are
furnished by physicians and other clinicians. The Medicare Integrity Program encompasses a
range of activities intended to prevent and detect improper payments. CMS contracts with
MACs and ZPICs, which are responsible for identifying and reviewing potential improper
payments.

WHAT WE FOUND

Of the 303 clinicians who each furnished more than $3 million of Part B services during
CY 2009, MACs and ZPICs identified 104 (34 percent) for improper payment reviews. As of
December 31, 2011, the MACs and ZPICs had completed reviews of 80 of the 104 clinicians and
identified $34 million in overpayments. In addition, three of the clinicians had their medical
licenses suspended and two were indicted. The results of these reviews demonstrate that
identifying clinicians who are responsible for high cumulative payments could be a useful means
of identifying possible improper payments Although existing procedures may identify some of
these clinicians for review, the procedures were not designed specifically to identify all clinicians


Reviews of Clinicians Associated With High Cumulative Payments Could Improve
Medicare Program Integrity Efforts (A-01-11-00511)                                                 i
whose payments exceed an established threshold. In addition, existing procedures may not
always identify clinicians responsible for high cumulative payments in a timely manner.

WHAT WE RECOMMEND

We recommend that CMS:

    •   establish a cumulative payment threshold—taking into consideration costs and potential
        program integrity benefits—above which a clinician’s claims would be selected for
        review and

    •   implement a procedure for timely identification and review of clinicians’ claims that
        exceed the cumulative payment threshold.

CMS COMMENTS

In written comments on our draft report, CMS stated that it partially concurred with both of our
recommendations. In response to our first recommendation, CMS stated that it would work with
its contractors to research and develop an appropriate cumulative payment threshold that
considers costs and potential benefits when determining which claims and providers should be
selected for review. Furthermore, CMS stated that in developing any thresholds, it would
consider other factors, including service type and provider specialty, to “inform the appropriate
threshold levels.” In response to our second recommendation, CMS stated that it would develop
a procedure for the timely identification and review of clinicians’ claims that exceeded the
cumulative payment threshold on the basis of the results of its research and our review. CMS
acknowledged that reviewing claims from providers with high cumulative payments could be a
valuable screening tool and that it is one of many factors MACs consider when deciding to place
a provider or supplier on manual medical review.




Reviews of Clinicians Associated With High Cumulative Payments Could Improve
Medicare Program Integrity Efforts (A-01-11-00511)                                              ii
                                                    TABLE OF CONTENTS


INTRODUCTION .......................................................................................................................1

         Why We Did This Review ................................................................................................1

         Objectives ..........................................................................................................................1

         Background .......................................................................................................................1
              Characteristics of High Cumulative Payment Clinicians........................................1
              Center for Program Integrity...................................................................................2
              Medicare Administrative Contractors and Zone Program Integrity
                 Contractors .........................................................................................................2

         How We Conducted This Review .....................................................................................3

FINDINGS ...................................................................................................................................3

         Medicare Contractors Selected Some, but Not All, Clinicians With
          High Cumulative Payments for Improper Payment Review ..........................................3

         Results and Timing of Improper Payment Reviews ..........................................................4

         Conclusion .........................................................................................................................5

RECOMMENDATIONS .............................................................................................................5

         CMS Comments ................................................................................................................5

APPENDIXES

         A: Medicare Part B High Cumulative Payments..............................................................6

         B: Audit Scope and Methodology ....................................................................................8

         C: CMS Comments ..........................................................................................................9




Reviews of Clinicians Associated With High Cumulative Payments Could Improve
Medicare Program Integrity Efforts (A-01-11-00511)                                                                                            iii
                                               INTRODUCTION

WHY WE DID THIS REVIEW

Medicare paid more than $65 billion for Part B services in each calendar year (CY) from 2008
through 2011. 1 In each of these 4 years, approximately 2 percent of clinicians 2 were responsible
for almost 25 percent of all Part B payments with annual payments of more than $500,000 per
clinician. (See Appendix A, Table 1.) These clinicians were responsible for average annual
payments of about $1 million. Clinicians generating high Part B payments represent a greater
risk to Medicare if they bill incorrectly or commit fraud. For this review, we define “high
cumulative payments” as total annual payments of more than $3 million for Part B services
furnished by an individual clinician. 3 From CY 2008 to CY 2011, both the number of Medicare
Part B clinicians and the total dollar amount of payments increased approximately 13 percent,
but both the number of clinicians generating high cumulative payments and the total dollar
amount of those payments increased almost 78 percent. (See Appendix A, Table 2.)

OBJECTIVES

Our objectives were to determine (1) how many individual clinicians who were responsible for
high cumulative payments were reviewed by Medicare administrative contactors (MACs) or
Zone Program Integrity Contractors (ZPICs) to identify improper payments and (2) the outcomes
of those reviews.

BACKGROUND

CMS administers Medicare, which provides health insurance coverage to people aged 65 and
over, people with disabilities, and people with end-stage renal disease. Medicare Part B covers
medical services, such as office visits, diagnostic tests, and drugs and biologicals, that are
furnished by physicians and other clinicians. Individual clinicians who furnish services to
Medicare beneficiaries must include their NPI numbers on their Medicare claims.

Characteristics of High Cumulative Payment Clinicians

All of the clinicians who each furnished more than $3 million of Part B services in CY 2009
were physicians. Over 75 percent represented three primary specialties: internal medicine
1
    This is according to the Centers for Medicare & Medicaid Services’ (CMS) National Claims History data.
2
 For purposes of this report, “clinicians” includes physicians, nurse practitioners, and physician’s assistants. The
clinician may not have been the billing provider and may not have received the payments.
3
  We identified clinicians by their National Provider Identification (NPI) numbers. The NPI is the standard unique
identifier for approximately 1 million health care providers, about half of whom are physicians who actively bill
Medicare. The NPI does not carry information about the health care provider, such as the State in which he or she
practices or the provider type or specialization but does identify whether a health care provider is an individual
clinician. The NPI is the only number that identifies total Part B payments for services furnished by an individual
clinician, but it does not identify the individual or entity that received payment for those services.


Reviews of Clinicians Associated With High Cumulative Payments Could Improve
Medicare Program Integrity Efforts (A-01-11-00511)                                                                     1
(55 percent), radiation oncology (12 percent), and ophthalmology (11 percent). The majority
practiced in Florida (28 percent), California (8 percent), New Jersey (7 percent), Texas
(7 percent), New York (6 percent), and Illinois (6 percent).

Center for Program Integrity

The Medicare Integrity Program (MIP) encompasses a range of activities intended to prevent and
detect improper payments. 4 The Center for Program Integrity (CPI) is responsible for oversight
of CMS efforts to prevent and detect improper and fraudulent payments. 5 Improper payments
can result from a variety of circumstances—from mistakes, such as incorrectly coded claims
(errors), to intentional deception, such as billing for services that were not provided (fraud). To
accomplish its mission, CPI recommends modifications to policies, regulations, and guidance;
conducts proactive data analyses, including predictive analytics; monitors provider enrollment
activities; and works with other CMS components, 6 Medicare contractors, the Office of Inspector
General (OIG), and the Department of Justice. The Fraud Prevention System (FPS),
implemented by CPI in 2011, is a new technology that relies on predictive analytics to prevent
and detect improper Medicare payments.

Medicare Administrative Contractors and Zone Program Integrity Contractors

CMS contracts with MACs to process and pay Medicare claims. In addition, MACs are
responsible for identifying and reviewing potential improper payments to prevent or detect the
errors that pose the greatest financial risk to Medicare. MACs perform two types of reviews:
simple reviews, which do not require clinical reviews of medical records to reach a
determination, and complex reviews, which involve medical record reviews by licensed nurses or
physicians to reach a determination. MACs refer instances of suspected fraud to the appropriate
ZPIC for further review. 7

ZPICs are responsible primarily for reviewing improper payments involving instances of
suspected fraud, waste, and abuse. ZPICs identify and review instances of potential fraud within
their jurisdictions and investigate allegations of fraud made by beneficiaries, providers, and
others. ZPICs refer cases of suspected fraud to OIG’s Office of Investigations so it can
determine whether sufficient evidence of fraud exists to pursue criminal or civil cases or
administrative sanctions. However, not all ZPIC reviews identify improper payments that are
suspected fraud. In these instances, the ZPIC coordinates with the appropriate MAC so the
MAC can recover any overpayments, educate providers, or do both.

4
    Social Security Act § 1893.
5
    Center for Program Integrity, New Strategic Direction and Key Antifraud Activities, Nov. 3, 2011.
6
 CMS, Office of Financial Management, also detects improper payments through utilization of prepayment edits,
Medicare Fee-for-Service Recovery Audits, and educational efforts.
7
  CMS created seven program integrity zones based on MAC jurisdictions and created ZPICs to perform program
integrity functions in these zones for Medicare.


Reviews of Clinicians Associated With High Cumulative Payments Could Improve
Medicare Program Integrity Efforts (A-01-11-00511)                                                              2
HOW WE CONDUCTED THIS REVIEW

We identified 303 clinicians who were each responsible for more than $3 million8 in Part B
payments during CY 2009 (for a total of $1.28 billion). We then determined the number of these
clinicians whom the MACs and ZPICs had already selected for improper payment reviews and
the outcomes of the reviews. Selecting CY 2009 as the audit period provided us with reasonable
assurance that the MACs and ZPICs had sufficient time to complete the reviews so that we could
determine the outcomes.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our scope and methodology.

                                                     FINDINGS

Of the 303 clinicians who each furnished more than $3 million of Part B services during
CY 2009, MACs and ZPICs identified 104 (34 percent) for improper payment reviews. 9 As of
December 31, 2011, the MACs and ZPICs had completed reviews of 80 of the 104 clinicians and
identified $34 million in overpayments. 10 In addition, three of the clinicians had their medical
licenses suspended and two were indicted. The results of these reviews demonstrate that
identifying clinicians who are responsible for high cumulative payments could be a useful means
of identifying improper payments.

MEDICARE CONTRACTORS SELECTED SOME, BUT NOT ALL, CLINICIANS
WITH HIGH CUMULATIVE PAYMENTS FOR IMPROPER PAYMENT REVIEW

MACs and ZPICs selected for improper payment review 104 of the 303 clinicians who were
each responsible for Part B services for which Medicare reimbursed more than $3 million in
CY 2009. To identify these 104 clinicians, MACs and ZPICs:

       •    analyzed Part B billing data to identify significant increases in payments or the number
            of services in a day for individual clinicians;

       •   compared individual clinicians to their peers to evaluate parameters such as hours billed
           per day and services furnished per beneficiary;
8
  We selected this amount because it identified 303 clinicians versus the over 5,000 clinicians who were each
responsible for more than $1 million in payments during CY 2009.
9
    The OIG Office of Investigations had ongoing or closed cases on 28 of the 104 clinicians in our review.
10
     The remaining 24 reviews are ongoing.


Reviews of Clinicians Associated With High Cumulative Payments Could Improve
Medicare Program Integrity Efforts (A-01-11-00511)                                                              3
       •   focused on selected issues, such as the location of provided services or a specific service;

       •   analyzed Medicare claims data for known fraud patterns and suspected fraud trends; and

       •   monitored the use of compromised provider and beneficiary information and provider
           enrollment screenings. 11

In addition, CMS and OIG each maintain hotlines that allow individuals to report suspected
instances of fraud, waste, and abuse. In some instances, hotline leads are forwarded to the ZPICs
and may result in improper payment reviews. Although existing contractor procedures may
identify clinicians who generate high cumulative payments for review, the procedures are not
designed specifically to identify all clinicians whose payments exceed an established threshold.

CPI’s new FPS was also not designed to identify all clinicians who are responsible for high
cumulative payments. We generated a list of 476 clinicians who each furnished over $3 million
in paid Part B services during CY 2011 (the first year that FPS was operational). Of that 476,
CPI’s FPS predictive analytics models identified 58 for further evaluation. CPI has preliminarily
evaluated eight of these providers and considered five of these “suspect.”

RESULTS AND TIMING OF IMPROPER PAYMENT REVIEWS

As of December 31, 2011, of the 104 clinicians identified for reviews, MACs and ZPICs closed
reviews of 48 without findings, and 24 reviews are ongoing. Of the remaining 32 clinicians, 13
were responsible for overpayments totaling more than $34 million, 11 received educational
letters, 12 6 must participate in prepayment reviews, and 3 had their medical licenses suspended. 13
In addition, two of the clinicians in the ongoing reviews were indicted, but their cases have not
yet been resolved.

However, existing procedures may not always identify clinicians responsible for high cumulative
payments in a timely manner. For five clinicians whom the MACs and ZPICs identified for
improper payment review, we compared the months and years they were identified for review to
the CY 2009 month that their Medicare Part B payments were at least $250,000. 14 The length of
time between when the clinicians’ CY 2009 monthly payments met or exceeded $250,000 and
when existing contractor procedures identified them for review ranged from 7 to 21 months.
11
  Medicare provider and beneficiary information is compromised when provider identifiers or Medicare numbers
are stolen or used without provider or beneficiary knowledge. This information is also compromised when a
provider or beneficiary is complicit, receiving payment for the use of his or her provider identifier or Medicare
number. In addition, contractors perform additional verification procedures when processing certain provider
enrollment transactions to identify instances of potential identity theft or other fraudulent activity.
12
  Educational letters address the providers’ specific coding, coverage, claims, or billing issues that were identified
by the review and include written educational materials that address the identified issues.
13
  The sum of the results of remaining reviews totals 33 because 1 clinician was responsible for an overpayment and
had his or her medical license suspended.
14
     Monthly payments of $250,000 are equivalent to $3 million annually.

Reviews of Clinicians Associated With High Cumulative Payments Could Improve
Medicare Program Integrity Efforts (A-01-11-00511)                                                                   4
Part B payments to the individual clinicians during this time ranged from approximately
$2.4 million to $4.9 million, for a total of nearly $17 million. (See Appendix A, Table 3.) Of
these five clinicians, three were responsible for overpayments, one was excluded from
participating in Medicare, and one was indicted but the review is ongoing.

CONCLUSION

We recognize that CMS must use its resources in the most cost-effective manner and should
establish procedures that balance potential benefits and workload considerations. However,
timely identification of incorrect billing, which may be the result of fraud waste, or abuse, is
essential to CMS’s ongoing program integrity efforts. These results illustrate that reviews of
individual clinicians associated with high cumulative payments have contributed to Medicare
program integrity efforts.

                                       RECOMMENDATIONS

We recommend that CMS:

    •   establish a cumulative payment threshold—taking into consideration costs and potential
        program integrity benefits—above which a clinician’s claims would be selected for
        review and

    •   implement a procedure for timely identification and review of clinicians’ claims that
        exceed the cumulative payment threshold.

CMS COMMENTS

In written comments on our draft report, CMS stated that it partially concurred with both of our
recommendations. In response to our first recommendation, CMS stated that it would work with
its contractors to research and develop an appropriate cumulative payment threshold that
considers costs and potential benefits when determining which claims and providers should be
selected for review. Furthermore, CMS stated that in developing any thresholds, it would
consider other factors, including service type and provider specialty, to “inform the appropriate
threshold levels.” In response to our second recommendation, CMS stated that it would develop
a procedure for the timely identification and review of clinicians’ claims that exceeded the
cumulative payment threshold on the basis of the results of its research and our review. CMS
acknowledged that reviewing claims from providers with high cumulative payments could be a
valuable screening tool and that it is one of many factors MACs consider when deciding to place
a provider or supplier on manual medical review. CMS’s comments, excluding three technical
comments that we addressed as appropriate, are included as Appendix C.




Reviews of Clinicians Associated With High Cumulative Payments Could Improve
Medicare Program Integrity Efforts (A-01-11-00511)                                                 5
         APPENDIX A: MEDICARE PART B HIGH CUMULATIVE PAYMENTS

  Table 1: Medicare Part B Payments for Services Rendered by Individual Clinicians
                              CYs 2008 Through 2011
 Payment     Percentage of Individual Clinicians      Percentage of Payments
 Range        CY08    CY09      CY10     CY11     CY08    CY09     CY10      CY11

 $500,000 or
    Less     98.00% 97.99% 98.07% 98.04% 75.44% 75.38% 75.32%                       74.73%
 More Than
  $500,000        2.00%      2.01%      1.93%      1.96%     24.56% 24.62% 24.68%   25.27%
 Total            100%       100%       100%       100%       100% 100% 100%         100%


           Table 2: Growth in High Cumulative Payments, CYs 2008 Through 2011
                                      CY08     CY09     CY10     CY11      % Change
                                                                         CY08 to CY11
 Total Part B Payments               $65.8 B $68.7 B $72 B      $74.8 B      13.68%
 Total Number of Part B Clinicians   850,928 877,861 914,017 957,579         12.53%
 Payments for Clinicians Furnishing
 More Than $3 Million in Part B
 Services                            $1.15 B $1.28 B $1.59 B $2.04 B         77.39%
 Number of Clinicians Furnishing
 More Than $3 Million in Part B
 Services                              268      303      374      476        77.61%




Reviews of Clinicians Associated With High Cumulative Payments Could Improve
Medicare Program Integrity Efforts (A-01-11-00511)                                           6
        Table 3: Payments Made Before Identifying Individual High-Cumulative Clinicians

                 Month              Month
                Payments         Identified for
                 Met or            Improper          Number of       Payments
                Exceeded           Payment          Months Until Made Before              Action
Clinician       $250,000            Review          Identification Identification         Taken

                                                                                      Exclusion from
    A           May 2009            Jan 2010               7            $2,391,082    Medicare
                                                                                      Identified
    B           Feb 2009           Jun 2010               15              3,147,207   overpayment

    C           Mar 2009           Dec 2010               21              4,912,029   Indicted

                                                                                      Identified
    D           Feb 2009            Jan 2010              10              3,447,937   overpayment

                                                                                      Identified
    E           Jan 2009           Aug 2009                7             3,077, 181   overpayment
  Total                                                                $16,975,436




Reviews of Clinicians Associated With High Cumulative Payments Could Improve
Medicare Program Integrity Efforts (A-01-11-00511)                                               7
                   APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered 303 clinicians who each furnished services for which Medicare reimbursed
more than $3 million for Part B services (for a total of $1.28 billion) during CY 2009. Selecting
CY 2009 as the audit period provided us with reasonable assurance that Medicare contractors
had sufficient time to complete improper payments reviews so that we could determine the
outcomes of those reviews. The objective of our review did not require that we determine
whether the Medicare reimbursement amounts to these clinicians were appropriate.

Our objectives did not require an understanding or assessment of the overall internal control
structure of Medicare’s Part B payment system. Therefore, we limited our review of internal
controls to obtaining an understanding of the CMS controls to those that related to our audit
objectives.

METHODOLOGY

To accomplish our objectives, we:

    •   reviewed applicable Medicare laws, regulations, and guidance;

    •   used CMS’s National Claims History file to determine Part B payments for services
        furnished by individual clinicians for CYs 2008 through 2011;

    •   identified 303 clinicians who each furnished more than $3 million of Part B services in
        CY 2009;

    •   contacted 8 MACs, 7 ZPICs, and the OIG Office of Investigations to determine whether
        they had reviewed any of the 303 clinicians, how they identified clinicians for review,
        and what the results of completed reviews were;

    •   contacted OIG’s Office of Investigations to determine whether any of 303 clinicians had
        been investigated and the outcome of those investigations; and

    •   contacted CMS to discuss how to identify payments made on behalf of individual
        clinicians and to obtain an understanding of program integrity activities.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Reviews of Clinicians Associated With High Cumulative Payments Could Improve
Medicare Program Integrity Efforts (A-01-11-00511)                                                8
                                                APPENDIX C: CMS COMMENTS 

    ~<l>#'s£RVI~ 


{      ~
 DEPARTMENT OF HEALTII & HUMAN SERVICES 	                                               Centers for Medicare & Medicaid Services


'~::::z\f-                                                                                       Administrator
                                                                                                 Washington, DC 20201




                                     SEP 19 2013
                     DATE: 


                     TO:            Daniel R. Levinson 

                                    Inspector General

                     FROM:


                     SUBJE CT: 	 Office of Inspector General (OIG) Draft Report: Reviews of Clinicians
                                 Associated With High Cumulative Payments Could Improve Medicare
                                 Program Integrity Efforts (A-01-11-00511)


                     Thank you for the opportunity to review and comment on the above-referenced OIG draft report.
                     The purpose of this report is to determine how many individual clinicians who were responsible
                     for high cumulative payments were reviewed by Centers for Medicare & Medicaid Services
                     (CMS) contractors, specifically Medicare Administrative Contactors (MAC) or Zone Program
                     Integrity Contractors (ZPIC), in order to identify improper payments and determine the outcomes
                     of those reviews.

                     High cumulative payments are not necessarily indicative of improper payments or fraud.
                     However, CMS does acknowledge that reviewing claims from providers with high cumulative
                     payments could be a valuable screening tool and is one of many factors MACs consider when
                     deciding to place a provider or supplier on manual medical review. MACs target error-prone
                     claim types and use their resources where they believe review will be most effective to address
                     billing issues and reduce improper payments. CMS instructs MACs to conduct data analysis of
                     claims. Data analysis is an essential first step in determining whether patterns of claims
                     submission and payment indicate potential problems. Such data analysis includes other factors,
                     ranging from the identification of aberrancies in billing patterns within a homogeneous group of
                     providers, suppliers, or claims to more sophisticated detection of patterns within claims or
                     groups of claims that might suggest improper billing or payment. ZPICs consider a variety of
                     factors in determining whether to investigate a provider or supplier, including but not limited to,
                     high dollar billing in comparison to historic billing patterns.

                     The CMS appreciates the time and resources OIG has invested to review this issue. Our
                     response to each of the recommendations follows.




             Reviews ofClinicians Associated With High Cumulative Payments Could Improve                                      9
             Medicare Program Integrity Efforts (A-01-11-00511)
    Page 2 - Daniel R. Levinson



    OIG Recommendation

    The CMS should establish a cumulative payment threshold--taking into consideration costs and
    potential program integrity benefits--above which a clinician's claims would be selected for
    review.

    CMS Response

    The CMS partially concurs with the recommendation. CMS will work with our contractors to
    research and develop an appropriate, cumulative payment threshold that considers costs, as well
    as potential benefits in determining which claims and providers should be selected for review. In
    developing any threshold CMS would need to consider other factors including service type and
    provider specialty to inform the appropriate threshold levels.

    OIG Recommendation

    The CMS should implement a procedure for timely identification and review of clinicians' claims
    that exceed the cumulative payment threshold.

    CMSResponse

    The CMS partially concurs with the recommendation. To address this recommendation, CMS
    will review the results of the contractor's reviews based on the OIG-identified clinicians who
    each furnished Part B services that were reimbursed more than $3 million in calendar year
    2009. CMS will take the results from our research as well as these reviews into account when
    developing a procedure for timely identification and review of clinicians' claims that exceed the
    cumulative payment threshold.

    Again, we appreciate the opportunity to comment on this draft report and look forward to
    working with OIG on this and other issues.




Reviews ofClinicians Associated With High Cumu lative Payments Cou ld Improve                           10
Medicare Program Integrity Efforts (A -01-11-00511)
